                                                                UNITED STATES DEPARTMENT OF COMMERCE
                                                                The Inspector General
                                                                Washington, D.C. 20230

December 12, 2011

The Honorable Harold Rogers                     The Honorable Norman D. Dicks
Chairman, Committee on Appropriations           Ranking Member, Committee on Appropriations
The Capitol, Room H-307                         The Capitol, Room H-307
U.S. House of Representatives                   U.S. House of Representatives
Washington, DC 20515                            Washington, DC 20515

The Honorable Frank: R. Wolf                    The Honorable Chaka Fattah
Chairman, Subcommittee on Commerce,             Ranking Member, Subcommittee on Commerce,
 Justice, Science, and Related Agencies          Justice, Science, and Related Agencies
The Capitol, Room H-309                         The Capitol, Room H-309
U.S. House of Representatives                   U.S. House of Representatives
Washington, DC 20515                            Washington, DC 20515

Dear Chairman Rogers, Ranking Member Dicks, Chairman Wolf, and Ranking Member Fattah:

As required by House Report 112-169, we are pleased to provide the status of the National
Oceanic and Atmospheric Administration's (NOAA's) implementation of recommendations
from the Department of Commerce Office of Inspector General July 2010 report on the fisheries
enforcement Asset Forfeiture Fund (AFF).

Our July 2010 report, OIG-19887-1, recommended 13 ways for NOAA to improve
administration and oversight ofthe AFF. In response, NOAA developed specific corrective
actions and provided my office with quarterly updates on progress to implement them. The
attachment shows the status of NOAA's corrective action plan as of August 16,2011.

NOAA asserts that all corrective actions are 100 percent complete. As a result, we reviewed
evidence supporting the completion of each action plan item identified by NOAA and found
some level of support for NOAA's assertions. However, we did not conduct an in-depth audit of
the action plan and did not review more detailed documentation that might more fully support
each of NOAA's conclusions. We are, however, currently conducting a separate review
addressing AFF financial controls with additional insights on the fund. Once complete, we will
share the results of the review with the Committee.

Our review of NOAA's action plan indicates that more work is needed to address the following
items:

   •   OIG Recommendation 1, Action Plan Item (c): "Develop procedures and implement
       routine monitoring and oversight of the fund."

       Status: NOAA developed procedures to monitor AFF transactions associated with all
       enforcement activities except those associated with asset seizure. It is not yet routinely
        monitoring the AFF deposit account, which contains the proceeds from the sales of assets
        seized by Office of Law Enforcement (OLE) agents.

    •   OIG Recommendation 6, Action Plan Item (c): "Ensure the appropriate office
        determined has the staff with the proper skill set and training to review and approve AFF
        appropriate expenditures including knowledge of record retention requirements," and
        OIG Recommendation 7, Action Plan Item (c): The National Marine Fisheries Service
        (NMFS) and the General Counsel for Enforcement and Litigation (GCEL) "will
        communicate the records retention schedule/policy to appropriate OLE and GCEL
        officials and staff and will implement procedures to ensure compliance with the
        disposition schedule."

        Status: NOAA trained NMFS Office of Management and Budget (OMB) on the proper
        approval of AFF disbursements. However, OLE, GCEL, and NMFS OMB staffs were not
        trained on the revised AFF record-retention policies.

    •   OIG Recommendation 8, Action Plan Item (d): "Research and document the best
        approach for moving all AFF financial data to the new AFF fund."

        Status: NOAA researched and documented an approach for moving all legacy AFF
        financial data to a new fund code for the AFF, in order to segregate AFF activity from
        other NOAA transactions beginning in FY 2011. However, NOAA did not identify
        balances on hand at September 30,2010, associated with Northeast Multispecies Fishery
        Management Plan and Pacific Insular violations prior to transferring the data into the new
        AFF fund code.

   •    OIG Recommendation 9, Action Plan Item (a): The Acquisition and Grants Office
        "will review the data set to validate the findings reported by KPMG. In the event
        cardholder impropriety is substantiated, the [Commerce Bankcard Center] will inform the
        Approving Official of the findings and take appropriate action depending upon the extent
        and severity of the impropriety found" and Action Plan Item (c): "Educate purchase
        cardholders of split purchase implications."

        Status: NOAA did not review the entire data set described in our July 2010 report.
        NOAA reviewed only 41 of the 4,000 potential split purchases and none of the 1,200
        potential duplicate purchases identified in our July 2010 report.

        In addition, although NOAA informed all applicable OLE and GCEL personnel that
        credit card training was required, NOAA did not establish a process to monitor and
        ensure that all applicable employees have taken the required annual training.

An identical letter was also sent to the Senate Committee on Appropriations and Subcommitee
on Commerce, Justice, Science, and Related Agencies.
If you have any questions, please feel free to contact me at (202) 482-4661, or Ann Eilers,
Principal Assistant Inspector General for Audit and Evaluation, at (202) 482-2754.

Sincerely,
/l
  Icro4t~·3~-
Todd J. Zinser


Attachment


cc: The Honorable John Bryson, Secretary of Commerce
    Dr. Jane Lubchenco, Under Secretary of Commerce for Oceans and Atmosphere and
     NOAA Administrator
                                                                                                                                                                                                   Attachment




                                                  ASSET FORFEITURE FUND (AFF) CORRECTIVE ACTION PLAN*
                                                                                UPDATED AS OF AUGUST 16,2011
                                                                                                                                      %of
                                                                                                                                    Completion
                   OIG Recommendation                                                Actions Planned                                                                     Current Status
 I. Precisely define the AFF and comprehensively audit it,     a) Independent review and confinnation of the fund balance for         100"/0,    COMPLETED
 initially and annually. To arrive at its findings, KPMG       the AFF as of March 31, 2010 by an independent certified public
 expended significant time attempting to define the AFF sinc   accounting finn.
 NOAA conld not provide a consistent definition. As such,
                                                               b) The NOAA Finance Office will define the activities that make        100%       COMPLETED. Collection of materials and research was
 KPMG was unable to assess individual transactions beyond
                                                               up the AFF and fund accounting structure to enable a clear                        conducted on current activities and fund structure. Documents
 review of available supporting documentation.
                                                               understanding of the AFF and how it functions.                                    describe cun'ent as well 8S prior accounting stmcture.


                                                               c) Develop procedures and implement routine monitoring and             100%       COMPLETED. Document on best practices from Justice,
                                                               oversight of the fund including benchmarking against other                        Treasury, and Depattment of/nterior has been finalized.
                                                               federal agencies with asset forfeiture funds to determine best
                                                               accounting and fiscal management practices for the fund.

                                                               d) Develop fonnat for fund activity statements to allow for            lOOlYo     COMPLETED. Statements have been developed from data
                                                               routine reporting and monitoring of fund transaction activity and                 provided and fonnat tested to ensure that statements are
                                                               fund balance.                                                                     providing consistent infonnation. Statements as of December
                                                                                                                                                 31,2010 were provided to the Office of/nspector General,
                                                                                                                                                 DOC.
                                                               e) Contract with an independent CPA finn in place to conduct a         100%       COMPLETED. An unqualified "clean" opinion was issued by
                                                               comprehensive financial audit on the March 31, 20 II fund                         Clifton Gunderson, CPA.
                                                               activity statements.
 2. Communicate the results of initial and annual audits ofth 2) Provide notification of results of the financial audit to NOAA       100%       CO:\IPLETED. Statement released on June 16,2011 by
 AFF to NOAA and DOC senior leadership, as well as            and DOC senior leadership, and outside stakeholders. Make the                      Maureen Wylie announcing a unqualified audit opinion. TIle
 outside stakeholders (Congress, OMB, etc.).                  detcnnination whether an annual audit is needed or whether                         Statement has been posted to NOAA's website. Testimony for
                                                              altemative procedures would be sufficient.                                         the June 20, 20 II Senate hearing on enforcement in Boston
                                                                                                                                                 also contained infonnation on the outcome of the audit.



 3. Specifically identiJY and account for the AFF in NOAA's a) VeriJY that all mandatory (non-fee) accounts appeal' as their          100%       COMPLETED. All mandatory non-fee accounts have been
 annual budget submissions                                  own section in the Congressional Budget Justification,                               identified. They will be represented in the FY 12 President's
                                                                                                                                                 Budget.

                                                               b) Within the Congressional Justification dre AFF, and all             100%.      COMPLETED. The AFF is now repOlted separately from the
                                                               necessa,y mandatory accounts, will appear in the NMFS section.                    NMFS in NOAA's FY 2012 Budget.
                                                               AFF, and all necessary mandatory accounts, will be listed on the
                                                               NOAA Control Table under Mandatory Accounts.


                                                               c) The budget details for AFF, and other idenrified funds, will be     100':-'.   COMPLETED. The AFF is now repOlted separately from the
                                                               presented in NOAA's Budget Su,runary (Blue Book).                                 NMFS in NOAA's FY 2012 Budget.

4. ModiJY OLE's and GCEL's processes for budgeting and a) Detennine the budget and spending processes of the asset                    100%       COMPLETED. NMFS met with the Asset Forfeiture
spending AFF proceeds to be comparable to other agencies forfeitlll'e fund programs of the Treasury and Justice                                  Management Staff in the DOJ Justice Management Division on
                                                                                                                                                           1h
with similar asset forfein.re funds; and benchmark the asset Departments.                                                                        August 13 They discussed all aspecls of budgering for their
forfeiture fund programs of the Treasury and Justice                                                                                             AFF (from prepa, ation of Congressional budget estimates 10
Departments for applicable best practices.                                                                                                       planning and approval of current year budgets). In addition to
                                                                                                                                                 the infonnation already reviewed (see 8/6110 update), DOJ sent
                                                                                                                                                 NMFS a 101 presentarion ofdreir program and several gnidance
                                                                                                                                                 documents that they use to detennine if a funding request can b
                                                                                                                                                 covered by the AFF. NMFS also reviewed documentation on
                                                                                                                                                 the Department of Treasury's Forfeiture Fund.


                                                               b) Develop process based on detemlined best practices and              100%       COMPLETED. Process officially approved by NOAA
                                                               implement IOllnal approval of the FY 2011 and funU'e annual                       Comptroller on 10/15110 and NOAA CFO on 10/19110.
                                                               AFF budgets, including review and approval of budgets by
                                                               NMFS CFO and NOAA CFO.
                                                               c) Enter AFF approved budget operating plans into the CBS and          100%       COMPLETED. Budget Operating Plans were entered into
                                                               MARS in order to allow comparison between budget and                              CBS May 23, 201 J.
                                                               obligations.

                                                               d) Produce AFF monthly reports - I. Budget Operating Plans    \IS.     100%       COMPLETED. NOAA Finance provided snlTImary level
                                                               Obligations and 2. Collections                                                    colleclions data to the MARS team. The team was able to
                                                                                                                                                 replicate the CBS Bilhng Report in MARS. We also have
                                                                                                                                                 BOPS vs. Obligations reports in MARS.

5. Document a formal interpretation of the statutory        a) Establish workgroup to document guidelines on the                      100%       COMPLETED
language in the Magnuson-Stevens Act as to authorized uses appoopriate and inappropriate usage of the AFF monies.
of the AFF; and establish and update fontral policy for OLE
and GCEL to clearly prescribe both authOlized and




• Prepared by NOAA's Office of Finance                                                              Page 1
                                                                                                                                                                                                 Attachment




                                                 ASSET FORFEITURE FUND (AFF) CORRECTIVE ACTION PLAN*
                                                                               UPDATED AS OF AUGUST 16,2011
                                                                                                                                    °/0 of
                                                                                                                                  Completion
                  OIG Recommendation                                                  Actions Planned                                                                  Current Slatus
 unauthorized expenditures of AFF monies.                     b) Develop baseline document of tile current usage of the AFF         100%       COMPLETED
                                                              monies.

                                                              c) Prepare a legal memorandum Ihat analyzes and sets forti, the       100%.      COMPLETED. Legal opinion regarding collections and use of
                                                              meaning of the Magnuson-Stevens Act provision that establishes                   the proceeds from fines, penalties, forfeirures was issued in a
                                                              ti,e AFF. including authorized and unauthOlized uses of ti,e Fund                memorandum from Cameron F. Kerry, DOC General Cowlsel
                                                                                                                                               and Lois Schiffer, NOAA General Counsel.


                                                              d) Develop a fonnal policy on the authorized and unauthorized         100%       COMPLETED. Asset Forfeiture Fund (AFF) Use Policy put in
                                                              uses of AFF monies, how the OLE and Ihe GCEL split costs                         place in September 20 I0 was reaffinned and finalized.
                                                              between AFF and appropriated funds.


 6. rake steps to greater centralize AFF approval processes   a) Document and fonnalize the current approval process for AFF        100%       COMPLETED
 for expenditures.                                            expenditures.
                                                              b) Detennine the most appropriate oftlee to approve AFF               100%       COMPLETED. The final version of the recommendation for
                                                              expenditures in the future in order to centralize the process.                   ti,e most appropriate office to approve AFF expenditures in the
                                                                                                                                               future was completed and ti,e Finance Omce met witir NMFS to
                                                                                                                                               disclIss.

                                                              c) Ensure the appropriate office detennined has the stalfwith the     100%       COMPLETED. Finance Office completed the final version of
                                                              proper skill set and training to review and approve AFF                          Ihe recommendation for the proper skill set and training needed
                                                              appropriate expenditures, including knowledge of record                          to approve AFF expendinlres in Ihe fi,ture and met with NMFS
                                                              retention requirements.                                                          to discllss.


                                                              d) Document and fonnalize tite new approval process through           100'Y.     COMPLETED. NOAA Finance Ollice has met wilh NMFS &
                                                              the centralized office detemlined in (b) for AFF expenditures.                   GCEL to discuss the transfer of the approval process for
                                                                                                                                               requests for obligation. A "white paper" was developed in
                                                                                                                                               order to obtain approval for the transition and met with NOAA
                                                                                                                                               CFO to discuss transition on December 10, 2010. The NOAA
                                                                                                                                               CFO issucd a memo on December 22,2010 to OLE & GCEL to
                                                                                                                                               begin the transition. A planning meeting was held with NMFS,
                                                                                                                                               January 10,20 II. to beb~n the transition of the process to
                                                                                                                                               NMFS.

7. Ensure that approved Asset Forfeiture Fund (AFF)          a) The Audit, Internal Control and Infonnation Management              100%       COMPLETED. Reviewed Chapter 200 of the Records
expenditure transactions have required electron.iclhard-copy Office)will review relevant financial record and purchase                         Management Handbook in conjunction with NMFS Records
supporting documentation (a recumng KPMG finding).           document retention policies listed in the NOAA Records                            Liaison Officer. Chapter 200 was revised on 4/14/09 and
                                                             Management Handbook Chapter 200 (specifically, section 200-6                      several series related (0 budget/finance records have been
                                                             (Electronic Budget Tracking Records) to update as warranted.                      revised, in p3lticular 200-09 CreditlBank Card Tr3llsactions
                                                                                                                                               retention extended to 6 years and 3 months. As a result ofthe
                                                                                                                                               review, we detennined the capture of Asscts Forfein...e Funds
                                                                                                                                               would be better served if a separate records retention schedule
                                                                                                                                               is created under Chapter 1513 Fishery Law Enforcement and
                                                                                                                                               Surveillance Files for Assets Forfein...e Funds.



                                                              b) The Audit, Internal Control and Infonnation Management             100%       COMPLETED. AlMa has secured OLE and GCEL
                                                              Office, NMFS, and GCEL will promulgate necessary revisions t                     agreement/approval on a records retention schedule for the AFF
                                                              this section.

                                                              c) NMFS and GCEL will communicate the records retention               100%       COMPLETED, Fonnal approval of the new recoros series was
                                                              schedule/policy to appropriate OLE and GCEL officials and stali                  submitted to the National Archives and Records Administration
                                                              and will implement procedures to ensure compliance with the                      on 1012911 0 for their review and approval by the Archivist of
                                                              disposition schedule.                                                            the United States. NARA approved the new records series for
                                                                                                                                               the AFF on April 7, 20 II.


                                                              d) The Audit, Internal Control and InfOlmation Management             1001~1     COMPLETED, An annual notification will be sent to NOAA
                                                              Office wi1l ensure annual reminders on proper records                            employees each year. The annual notification reminder for FY
                                                              management practices ate disseminated to NOAA employees.                         20 II was sent to all NOAA employees on Feb. 7, 20 II.


8. Develop improved processes to clearly identify and track a) Identify and document Ihe approach for establishing the new          100%       COMPLETED, 111e Finance Office has documented our draft
AFF monies received and expended, and to ensure that AFF AFF fund code and communicating Ihe related changes to all                            approach for establishing the new Fund Code and ti,e approach
fiu,ds are not commingled.                                  affected personnel.                                                                for communicating the related changes to Ihe affected personnel


-




• Prepared by NOM's Office of Finance                                                               Page 2
                                                                                                                                                                                                     Attachment




                                               ASSET FORFEITURE FUND (AFF) CORRECTIVE ACTION PLAN*
                                                                               UPDATED AS OF AUGUST 16,2011
                                                                                                                                    0/0 of
                                                                                                                                  Completion
                 OIG Recommendation                                                  Actions Planned                                                                       Current Status
                                                              b) Establish the new AFF flUId code and begin recording all new       100·;',       COMPLETED. The new fund code (1006) and project codes
                                                              AFF budget and linancial transactions to the new AFF fund code                      have been established. Conununications have been distributed
                                                              at the start of Fiscal Year (FY) 2011.                                              to OLE and GCEL users. OLE and GCEL began recording
                                                                                                                                                  activity to the new ACCS values on October I".


                                                              c) Work with budget representatives from the NMFS and the             100%          COMPLETED. Worked with NMFS and GCEL to docwneut
                                                              NOAA General Counsel to identify the best approach for                              the approach and the impact on Budget and Financial data. Any
                                                              tracking each AFF budget and financial transaction.                                 additional changes to the interpretation of the statutory languagt
                                                                                                                                                  could impact this deliverable.

                                                              d) Research and docmnent the best approach for moving all AFF         100%          COMPLETED. NOAA Finance completed documentation of
                                                              financial data to the new AFF fund.                                                 the conversion approach for historical docmnents. Conversion
                                                                                                                                                  approach docmneut revised and reissued January 24, 2011.


                                                              e) Based on the oulcome of our research, design and deploy the        100%          COMPLETED. Completed the transfer of cash balances from
                                                              approach for tracking aud reporting all AFF financial                               fund codes 6 and 96 to fWld code 1006. Completed
                                                              tTBnsactions from a single new AFF fund code.                                       documentation of the COllversion.
                                                                                                            ,
9. Implement more sttingent internal reviews for improperly   a) AGO will review the data set to validate the findings reported     100%          COMPLETED. Requested a copy of the KPMG dataset in
split purchase card transactions (i.e., those involving the   by KPMG. In the event cardholder impropriety is substantiated,                      Microsoft Excel fonnat on July 29, 2010. Received file
same CBld holder, date, veudor, and the same or different     the CBC will infonn the Approving Oflicial of the findings and                      containing the data set of approximately 399 transactious
amounts) and duplicate purchase transaclions. KPMG found      take appropriate aClion depending upon the extent and severity                      generated by KPMG on July 29, 2010. Completed review of
evidence of multiple splil transactions, which circumvent     of the impropriety found.                                                           34 of the 41 transactions identified as Split and completed
single purchase limits and competitive procurement                                                                                                preliminary report of the findings on 08182010. Requested 7
procedlu'es, as well as duplicate ttansactiol1s.                                                                                                  additional files 6'om orG on 8 192010 to complete review of
                                                                                                                                                  split transactions. Remaining 7 transactions received from aIG
                                                                                                                                                  and reviewed. KPMG Data Set Validation final rep0l1
                                                                                                                                                  completed on 8 26 20 IO.

                                                              b) AGO provides data and makes recommendations to                     IOOIX)        COMPLETED. Memorandum from CBC to NMFS Assistant
                                                              management on split purchase findings. It will be the                               Administrator, Acting Director OLE, and Director Management
                                                              responsibility of OLE and GCEL management to detennine                              and Budget NMFS dated 8 27 2010 forwarding report from 9. a
                                                              whether to pursue taking any disciplinary or other personnel                        for action.
                                                              actions on the basis of the infolmation provided by the CBC.

                                                              c) Educate purchase cardholders of split purchase implications        100%          COMPLETED. News Flash sent out to all NOAA cardholders
                                                                                                                                                  and Approving Officials via CPCS email on 8 30 20 ID. In an
                                                                                                                                                  eff0l1 to educate both NOAA Cardholders and Approving
                                                                                                                                                  Officials, the News Flash contained the cUlTent web liuk to
                                                                                                                                                  Purchase Card Policy, the definition of Split Purchase, two
                                                                                                                                                  additional refereuces within the policy dealing with split
                                                                                                                                                  purchases and two examples of split purchases.

                                                              d) Improve the split purchase review. Approving Officials will        lOOIYo         COMPLETED. Received notification fi'om DOC/OAM on
                                                              be reminded of their responsibility to monitor transactions for                     July 20, 2010 that JP Morgan Chase reporting system is now
                                                              possible split purchases and take action inunedialely as                            generating notificalion email alerts to Cardholders, Approving
                                                              appropriate.                                                                        Officials and Agency Program Coordinators (APC's)
                                                                                                                                                  department wide identifYing potential split purchases.
                                                                                                                                                   Confilmed with NOAA Agency Program Coordinators (APC's)
                                                                                                                                                   tl,at the system is identifying potential split transactions
                                                                                                                                                  .automatically. NOAA Approving Officials are providiug
                                                                                                                                                   purchase card documentation 10 NOAA APC's for transactions
                                                                                                                                                  identified as pOlential split purchases.

10. Deternline the cost-effectiveness of General Services     a) Logistics Division will provide Fisheries with GSA and other       100%          COII·IPLETED. LaD provided NMFS OLE Gov't-wide policy
Administration-leased vs. purchased vehicles; establish       Govenunent-wide policy (for lease versus purchase of vehicles                       on lease vs. purchase of vehicles.
fannal policy for vehicle acquisition and management, base    and vehicle management and disposition procedures.
Oil operational need; and apply appropriate disposition
procedures for excess vehicles.                               b) nle Logistics Division will prepare a paper, based on GSA          100%          COMPLETED. Logistics has provided guidance for a
                                                              and Government-wide policy, to develop NOAA guidance for                            lease/purchase analysis to NMFS OLE and to regional Logistics
                                                              tl,e lease versus purchase o{vehicles. The Guidance will be                         personnel for dissemination in the field.
                                                              provided to all NOAA offices so that program-level policies can
                                                              be developed or updated.

                                                                                                                        .-                    -




• Prepared by NOAA's Office of Finance                                                             Page 3
                                                                                                                                                                                                     Attachment



                                                 ASSET FORFEITURE FUND (AFF) CORRECTIVE ACTION PLAN*
                                                                                UPDATED AS OF AUGUST 16,2011
                                                                                                                                       %of
                                                                                                                                     Completion
                  OIG Recommendation                                                  Actions Plsnned                                                                     Current Statu!
                                                               c) TIle Logistics Division will review Sunflower property record        100%       COMPLETED. Logistics reconciled OLE vehicle inventory
                                                               to detennine if OLE vehicle acquisitions and disposals have beer                   pulled from Sunflower with the inventory provided by OLE
                                                               properly reponed.                                                                  obtained fi'ol11 OLE Division management staff


                                                               d) If the review in 10c delennines some vehicle disposal is             100%       COMPLETED. Logistics provided specific ;nSlmclions for
                                                               needed, Ihe Logistics Division will provide OLE with specific                      handling orOLE's excess inventory, for vehicles showing as
                                                               guidance based on existing excess and disposal policy.                             excess in Sunflower and sl,;tive in Sunflower. but considered
                                                                                                                                                  excess by OLE.

                                                               e) NMFS will use the criteria to update their existing criteria and     100%       COMPLETED, TI,e updated NMFS OLE policy has been
                                                               policy for vehicle acquisition management and disposition based                    approved and was distributed to senior OLE management on
                                                               on operational need and mission.                                                   December 13,2010.


                                                               /) NMFS Headquarters will communicate the revised procedures            100%       COMPLETED. NMFS OLE conulllU1icated the updated
                                                               and criteria to Office of law Enforcement persolUlel through                       procedures with a training guide and a mandate for all
                                                               mandatOly training for any personnel responsible for acquiring 0                   supervisors to ensure completion of training by a specified date.
                                                               using vehicles.


 II. Establish fOllnal policy for which OLE personnd shonl a) The Logistics Division will revise existing NOAA policy to               100";',    COMPLETED. Logistics has updated the Vehicle
 be authorized used of daily take-home vehicles; and review clslify authorized lise of govemment law enforcement vehicles                         Management website with current Govemrnent-wide vehicle
 and determine the number of "pool" vehicles pel' locale    incorporating GSA and other Govellunenl-wide policy.                                  managemenl policy. Logisrics has posled the new NOAA home
 based on jusrified need.                                                                                                                         to-work policy for goverrunent law enforcement vehicles and
                                                                                                                                                  provided to NMFS OLE.

                                                               b) The Logistics Division will work with NMFS OLE to                    100%       COMPLETED, Logistics has provided NMFS OLE with
                                                               detennine the appropriate inventory level for law enforcement                      guidance regarding vehicle allocation methodology and the
                                                               vehicles.                                                                          updated NOAA home -to-work policy. NMFS OLE has
                                                                                                                                                  completed their physical inventory and Logistics has advised
                                                                                                                                                  them of specific missing documentarion needed to complete
                                                                                                                                                  actions in Sunflower. The status of all OLE vehicles (awaiting
                                                                                                                                                  excess, etc.) is clear in Sunflower. The NMFS OLE Director
                                                                                                                                                  has compleled review of the justificarions and the inventory
                                                                                                                                                  level has been detennined.

                                                               c) NMFS will implement procedlll'es to ensure compliance with           IOOIYt,    COMPLETED. The updated NMFS OLE policy has been
                                                               the internal policy.                                                               approved and was distributed to senior OLE management on
                                                                                                                                                  December 13,2010.
   ,                                                           d) NMFS will ensure that personnel are aware of the appropriate         100%.      COMPLETED. NMFS OLE communicated the updated
                                                               use of a vehicle before OLE personnel use a government vehicle.                    procedures with a training guide and a mandate for all
                                                                                                                                                  supervisors to ensure completion of training by a specified date.


12. Review and set policy for which OLE positions and          a) Assist OLE and GCEL in conducting a review orthe current             100%       COMPLETED. Identified OLE/GCEL hierarchies for
personnel should be authorized use of purchase credit cards,   number of cardholders with an overall goal ofreducing the total                    cardholders and approving officials as ofJune 30, 2010 (191
based on operational need. Presently, nearly evel)' OLE        number or purchase cards to the appropriate level; the CBC will                    cardholders). CBC staff are currently generating reports to
special agent and enforcement officer is issued a purchase     generate and provide the following reports: I. Cardholder Report                   extract fiscal year 2009 and 2010 transactional data on
card.                                                          and 2. Approving Official Report                                                   OLElGCEL cardholders for analysis. Approving Official
                                                                                                                                                  hierarchy has been determined and the dala is being assembled
                                                                                                                                                  into a repon. Dala has been assembled 10 complele the 2
                                                                                                                                                  reports.
                                                               b) In cases where cardholders have low transactional activity, th~      100%       COMPLETED. TI,e CBC forwarded the two reports required
                                                               CBC will recommend 10 OLElGCEL management cancellation                             by 12a on Augusl 19. 20 10 to OLE, Mark Palemi and GCEL,
                                                               of those purchase cards.                                                           Charles Green. GCEL provided their response 10 the CBC and
                                                                                                                                                  two of ten cardholder accounts were canceled on August 31.
                                                                                                                                                  2010. OLE provided their response to CBC and 60 of 182
                                                                                                                                                  were canceled on September 8. 2010.
 13. Detennine whether NOAA's inabili~f to adequately          The Assistant General Counsel for Administratiou will prepare a         lOO'X,     a. COMPLETED, legal opinion regarding collections and use
track AFF expenditures constitutes violation of any federal    legal memorandum addressing whether NOAA's use of the AFF                          of the proceeds from fines, penalries, forfeitures was issued
financial management law or standard. For example. wh.ile      may have given rise to violations of any federal financial                         FebmalY 28, 2011 in a memorandum from Cameron F. Kerry,
the Magnuson·Stevens Act requires that fines and penallies     management law or standard. This review will address NOAA's                        DOC General Counsel and Lois Schiffer, NOAA General
imposed for violations ohhe NOitheast Multispecies FishelY     use oflhe AFF subsequent to January 1,2005.                                        Counsel (see CAP #5).
Management Plan are to be specifically used 10 enforce Ihat
Plan, NOAA has not tracked the use oflhese funds. The                                                                                             b. COMPLETED. Contract auditors provided Micro-Purchase
then-Director was unfamiliar with this requirement when we                                                                             lOOIX.     Review and Management Letter which covers both the financial
initially addressed it with him.                                                                                                                  audit (see CAP#J) and the Micro-Purchases Review.




• Prepared by NOAA's Office of Finance                                                               Page 4
